                                  September 29, 2000

                                  DONNA M. PEAK
                                  ACTING VICE PRESIDENT,
                                   FINANCE, CONTROLLER

                                  SUBJECT: Audit Report - Equity Loss Payments
                                           (Report Number FT-AR-00-004)

                                  This report addresses payments for losses on real estate
                                  transactions incurred as part of the Postal Service’s
                                  relocation program. The Board of Governors requested the
                                  overall audit on relocation benefits. This is the third in a
                                  series of reports1 examining relocation benefits for Postal
                                  Service executives. Our relocation work is continuing and
                                  future reports will address other aspects of relocation
                                  benefits for Postal Service executives.

Results in Brief	                 Through benchmarking, we confirmed that the Postal
                                  Service policy of reimbursing employees for losses incurred
                                  on real estate transactions was similar to policies of the
                                  private sector and other government agencies. In addition,
                                  we found that payments were calculated properly based on
                                  the verbal formulas provided by Postal Service officials.
                                  However, controls over equity loss payments needed
                                  improvement. We are providing three recommendations to
                                  address the issues identified in this report.

                                  Management agreed with two recommendations to fully
                                  document policies and procedures for equity loss calculation
                                  and reimbursement; and develop and publish a list of
                                  approved capital improvements used in determining loss on
                                  the sale of an employee’s home. However, management
                                  disagreed with our recommendation to record
                                  miscellaneous expense allowances and equity loss
                                  payments in separate accounts. We will not pursue
1
 The first report in this series was published on May 2, 2000, Relocation Benefits for Postal Service Officers (Report
Number FR-FA-00-010(R)). The second report was published on September 28, 2000, Miscellaneous Relocation
Expense Payments (Report Number FT-AR-00-001).
Equity Loss Payments                                                         FR-AR-00-004



                        resolution of this recommendation at this time. Instead, we
                        plan to reexamine this issue in future financial statement
                        audits. Management's comments, in their entirety, are
                        included in the appendix.

Background              The Postal Service provides loss protection on real estate
                        transactions to employees who change official duty station
                        and sell their primary residences at a loss. This benefit is
                        allowed to all executive and administrative schedule
                        employees and above on a progressive scale as shown in
                        Table 1.

                                        Table 1. Reimbursement Scale

                               Reimbursement %        PCES             EAS
                                     100%        First $50,000   First $25,000
                                     50%         Next $50,000    Next $25,000
                                     25%         Over $100,000   Over $50,000


                        An employee must provide appropriate documentation to
                        support the loss amounts, such as a copy of the purchase
                        settlement statement and the sales contract. Corporate
                        Accounting is responsible for evaluating and approving
                        equity loss payments. Upon approval, requests for equity
                        loss reimbursements are filed on PS Form 1012, Travel and
                        Expenses Voucher.

Objective, Scope, and   Our audit objectives were to determine whether equity loss
Methodology             benefits were comparable with private industry and other
                        government agencies and controls over equity loss
                        payments were adequate. In addition, we determined
                        whether payments were calculated in accordance with the
                        formulas.

                        To accomplish our objectives we:

                        -   Reviewed Postal Service relocation policies and
                            procedures.




                                          2
Equity Loss Payments 	                                                                            FR-AR-00-004



                                 -   Reviewed payments in excess of $10,000 from the
                                     miscellaneous expense account2 that were made
                                     between fiscal year (FY) 1997 to May 2000.3

                                 -   Reviewed Internal Revenue Service relocation
                                     guidelines.

                                 -   Interviewed appropriate Postal Service officials.

                                 -   Benchmarked with other nonappropriated government
                                     agencies (including quasi-government organizations)
                                     and Fortune 500 companies.

                                 In conducting our review, we identified 125 miscellaneous
                                 expense allowance payments over $10,000. Upon further
                                 analysis, we determined that the account was comprised of
                                 miscellaneous expense allowance4 and the equity loss
                                 payments. Of the 125 payments we reviewed, 79 were
                                 equity loss reimbursements that totaled over $1.7 million.

                                 This audit was conducted from May 2000 through
                                 September 2000 in accordance with generally accepted
                                 government auditing standards and included such tests of
                                 internal controls as were considered necessary under the
                                 circumstances. We discussed our conclusions and
                                 observations with appropriate management officials and
                                 included their comments, where appropriate.

Benchmarking 	                   We determined that the Postal Service’s equity loss
                                 program was comparable to those offered by the private
                                 sector and similar government agencies. Specifically, we
                                 surveyed 35 fortune 500 companies and 8 nontaxpayer
                                 funded government agencies. We found that of the
                                 29 entities that responded, 24 had equity loss programs, as
                                 shown in Table 2. These entities reimbursed employees for
                                 equity losses ranging from 5 to 100 percent of the total loss.




2
  General ledger account 51239.
3
  In addition, we identified 62 employees of the Office of Inspector General who have received miscellaneous
expense allowances between January 1997 and May 2000. Fifty-four OIG employees received allowances of
$2,500, and eight employees received allowances of $10,000.
4
  Miscellaneous expense allowances are payments given to employees who have been authorized a permanent
change of station relating to relocation. This payment is initiated to cover costs such as disconnecting and
connecting appliances and utilities, cutting and fitting rugs, and registering automobiles.




                                                       3
Equity Loss Payments                                                          FR-AR-00-004



                                         Table 2. Benchmarking Results

                                               Nontaxpayer Funded
                        Existing Equity Loss      Government       Fortune 500
                              Program               Agencies      Organizations

                               Yes                     4                 20
                               No                      2                  3
                           No Response                 2                 12


Controls Over Equity   Control over equity loss payments needed improvement.
Loss Payments          We noted that the formulas used by the Postal Service to
                       calculate equity loss payments were not documented. In
                       addition, the items considered to be capital improvements
                       and used to calculate the equity loss payments had not
                       been documented. Postal Service personnel insisted that
                       every effort was made to be consistent in administering the
                       equity loss program. However, without documented policies
                       and procedures, the potential for inconsistent determination
                       of equity loss payments is increased.

                       In addition, we found that equity loss payments were
                       recorded in the same general ledger account as
                       miscellaneous expense allowances. As a result, the Postal
                       Service’s ability to monitor the amount of equity loss and
                       miscellaneous expense allowance payments may be
                       hindered.

Formulas               Formulas to calculate equity loss payments were not
                       documented because other projects had a higher priority.
                       We recalculated 79 equity loss payments that were made
                       during the period of FY 1997 through May 2000 using the
                       formulas that were verbally conveyed to us by postal
                       officials. We found only one payment that was inconsistent
                       with the formula that resulted in a $1,800 difference. Postal
                       personnel stated that they made a mistake in calculating
                       this payment.

Listing of Capital     The Postal Service allows employees to add the cost of
Improvements           certain home improvements to the purchase price of their
                       home when determining equity loss reimbursements.
                       However, the Postal Service did not have a formal definition
                       of what is considered to be a capital improvement. For
                       instance, the Postal Service considers landscaping
                       completed in the first year and portions of other costs (e.g.
                       one-half of the cost of a swimming pool) to be eligible costs



                                          4
Equity Loss Payments                                                                              FR-AR-00-004



                       for reimbursement under the equity loss reimbursement
                       program. According to Postal Service officials, a list of
                       approved capital improvements was not developed because
                       it would be too long.

                       Internal Revenue Service Publication 523, “Selling Your
                       Home,” contains a list of capital improvements. As shown in
                       Table 3, the Internal Revenue Service includes items such
                       as additions to homes, certain lawn and grounds
                       improvements, and other items that are not considered
                       routine maintenance to be capital improvements.

                                               T a b le 3 . IR S C a p ita l Ite m s

                                                        H e a tin g a n d A ir            Law n and
                              A d d itio n s              C o n d itio n in g              G ro u n d s
                       B e d ro o m                    H e a tin g S y s te m        L a n d s c a p in g
                       B a th ro o m                   C e n tra l A ir              D riv e w a y
                       D eck                           F u rn a c e                  W a lk w a y
                       G a ra g e                      D u c t W o rk                Fence
                       P o rc h                        C e n tra l H u m id ifie r   R e ta in in g w a ll
                       P a tio                                                       S p rin k le r s y s te m
                                                         M is c e lla n e o u s      S w im m in g p o o l
                                                       N ew Roof
                                 In te rio r           S to rm W in d o w s ,
                           Im p ro v e m e n ts        D o o rs                           P lu m b in g
                       B u ilt- in a p p lia n c e s   C e n tra l v a c u u m       S e p tic s y s te m
                       K itc h e n
                       m o d e rn iz a tio n           W irin g u p g ra d e s       W a te r h e a te r
                       F lo o rin g                    S a te llite d is h           S o ftw a te r s y s te m
                       W a ll-to -w a ll c a rp e t    S e c u rity s y s te m       F iltra tio n s y s te m

                       We believe that the Postal Service could use the Internal
                       Revenue Service definition to provide a consistent definition
                       of items that are considered a capital improvement. Without
                       documented policies and procedures, the potential for
                       inconsistent determination of equity loss payments is
                       increased.

Recording of Equity    Equity loss payments were combined with miscellaneous
Loss Payments          expense allowances in the same general ledger account.
                       Postal Service personnel stated that a separate account
                       was not created because it was not practical to set up a
                       general ledger account for such an infrequent occurrence.




                                                5
Equity Loss Payments                                                       FR-AR-00-004



                       By combining these two types of expenses in the same
                       account, the Postal Service is unable to readily determine
                       the total amount of equity loss reimbursements. As a result,
                       the Postal Service’s ability to monitor the amount of equity
                       loss and miscellaneous expense allowance payments may
                       be hindered.

                       According to General Accounting Office standards for
                       internal control in the federal government, organizations
                       should have control activities that help to ensure that all
                       transactions and events are completely and accurately
                       recorded. Additionally, operational and financial information
                       should be recorded and communicated to management in a
                       form that enables them to make operating decisions,
                       monitor performance, and allocate resources.

                       Postal Service officials stated that it was impractical to
                       establish a general ledger account for an item as infrequent
                       as equity losses. However, the Postal Service has a
                       general ledger account that tracks the costs of the shared
                       real estate appreciation loan program. This account tracks
                       the expenses for 26 employees.

                       A separate account for equity losses would provide the
                       Postal Service with a more accurate assessment of equity
                       loss payments. Such information would facilitate analysis of
                       relocation benefits and enhance the Postal Service’s ability
                       to accurately assess the magnitude of equity loss payments
                       and how such expenses affect its fiscal operations.

Recommendation 	       The chief financial officer should:

                       1. Fully document policies and procedures for equity loss
                          calculation and reimbursement.

Management’s 	         Management concurred with this recommendation and
Comments 	             stated that by early 2001 the vice president, Finance,
                       Controller will update the relocation handbook to include the
                       policies and process to be followed for equity loss calculation
                       and reimbursement.

Evaluation of          Management’s comments were responsive to our

Management             recommendation. 

Comments 





                                         6
Equity Loss Payments 	                                                     FR-AR-00-004




Recommendation 	         The chief financial officer should:

                         2. Develop and publish a list of approved capital
                            improvements used in determining loss on the sale of an
                            employee’s home.

Management’s 	           Management concurred with this recommendation and will
Comments 	               include in the relocation handbook items outlined in their
                         previous policy letters that may be considered in claiming
                         equity loss.

Evaluation of            Management’s comments were responsive to our

Management               recommendation. 

Comments 


Recommendation 	         The chief financial officer should:

                         3. Record miscellaneous expense allowances and equity
                            loss payments in separate accounts.

Management’s             Management disagreed with this recommendation.
Comments                 Management stated that over the past four years, less than
                         100 employees received equity loss reimbursements totaling
                         less than $2 million. Management cited the costs of
                         establishing and maintaining general ledger accounts as one
                         reason for not recording miscellaneous expense allowances
                         and equity loss payments in separate accounts.
                         Management is in the process of reducing general ledger
                         accounts that do not have significant volumes to create
                         efficiencies in their accounting systems. Management also
                         stated that since equity loss reimbursements and
                         miscellaneous expense allowances have the same individual
                         tax reporting features, there was no overwhelming reason to
                         change their account structure.

Evaluation of            We disagree with management’s assertion that that there
Management               was no overwhelming reason to record miscellaneous
Comments                 expense allowances and equity loss payments in separate
                         accounts. While management stated that they were in the
                         process of reducing general ledger accounts, we noted an
                         increase of 46 general ledger accounts between September
                         1998 and September 2000. Twenty-two of these new
                         accounts were established to record expenses. We also



                                           7
Equity Loss Payments                                                        FR-AR-00-004



                       noted that the Postal Service maintains separate general
                       ledger accounts for other relocation expenses, such as
                       advance round trips, en route travel, temporary quarters, and
                       residence purchases and sales, even though each of these
                       relocation benefits has the same individual tax reporting
                       features of equity loss reimbursements and miscellaneous
                       expense allowances.

                       We still contend that a separate account for equity losses
                       would provide the Postal Service with a more accurate
                       assessment of equity loss payments. Such an account
                       would allow the Postal Service to better assess the
                       magnitude of equity loss payments and how such expenses
                       affect its fiscal operations. However, we will not pursue
                       resolution of this recommendation at this time. Instead, we
                       will reexamine this issue in future financial statement audits.

Additional             Management raised an issue in their response regarding
Management             communication of audit observations and conclusions with
Comments               appropriate management officials. We believe the issues
                       were discussed with appropriate management officials
                       during fieldwork. However, prior to final release of this
                       report, we met with the acting vice president, finance,
                       controller, and agreed that formal exit conferences will be
                       scheduled on all future Finance audits.

                       We will incorporate the results of this audit into our summary
                       report on relocation benefits. We appreciated the
                       cooperation and courtesies provided by your staff during the
                       review. If you have any questions, please contact John
                       Seeba or me at (703) 248-2300.



                       Debra S. Ritt
                       Acting Assistant Inspector General
                        for Business Operations

                       cc: 	 Mary Anne Gibbons
                             Deborah K. Willhite
                             William Johnstone
                             John R. Gunnels




                                         8
Equity Loss Payments                                 FR-AR-00-004



                   APPENDIX. MANAGEMENT'S COMMENTS




                                  9
Equity Loss Payments        FR-AR-00-004




                       10
